   Office of Inspector General
       Audit Report



ACTIONS NEEDED TO ENFORCE CONTROLS
       OVER PURCHASE CARDS

        Department of Transportation

         Report Number: FI-2013-116
          Date Issued: July 25, 2013
           U.S. Department of
                                                               Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   ACTION: Actions Needed to Enforce Controls                                   Date:    July 25, 2013
           over Purchase Cards
           Department of Transportation
           Report Number FI-2013-116

  From:    Louis C. King                                                             Reply to
                                                                                     Attn. of:   JA-20
           Assistant Inspector General for Financial and
            Information Technology Audits

    To:    Senior Procurement Executive, DOT
           Federal Aviation Administrator


           During fiscal years 2010 and 2011, 1 Department of Transportation (DOT)
           employees used credit cards issued to them through the Department’s Purchase
           Card Program to make over 450,000 purchases valued at approximately
           $277 million. Employees are authorized to use these cards for Government
           purchases of services, supplies, and construction. Federal regulations require
           departments to establish policies and procedures to minimize purchase card
           misuse. However, in 2010, the Federal Aviation Administration (FAA) notified
           OIG that an FAA cardholder was using her purchase card to make unauthorized
           purchases. An OIG investigation revealed control weaknesses related to
           management oversight and non-compliance with policies and procedures for card
           use that resulted in fraudulent purchases totaling over $123,000. 2

           We initiated this audit to evaluate Departmentwide internal controls over purchase
           cards. Our primary objective was to assess the adequacy of the controls in place to
           prevent and detect erroneous 3 purchases made with DOT-issued purchase cards.
           Furthermore, early in our review, we identified issues regarding one FAA
           cardholder’s purchase of computers. Consequently, we expanded our audit to


           1
             This period includes purchases made from October 1, 2009 to March 31, 2011.
           2
             September 27, 2010 Press Release, “FAA Employee Pleads Guilty to Stealing $123,774 from the U.S. Government,”
           available at www.oig.dot.gov.
           3
             OMB A-123, Appendix B “Improving the Management of Government Charge Card Programs” defines an erroneous
           purchase as any purchase that should not have been made or was made in an incorrect amount.
                                                                                                                     2


assess the effectiveness of FAA’s controls for recording information technology
(IT) and other accountable property 4 in the Agency’s inventory system.

To conduct our work, we selected two statistical samples. The first sample
consisted of 413 purchases from a universe of 727,510 which allowed us to project
the total amount of erroneous purchases made by the Department. The second
sample consisted of 44 Dell computer purchases which allowed us to project the
total amount of Dell computer purchases made at the Mike Monroney
Aeronautical Center (MMAC) that were not recorded in the inventory system
within 30 days of receipt. We conducted this audit in accordance with generally
accepted Government auditing standards. Exhibit A provides details on our scope
and methodology.

RESULTS IN BRIEF

DOT designed adequate controls to prevent and detect erroneous purchases in the
purchase card program. However, cardholders and approving officials did not
always adhere to these controls. 5 We identified eighty-four, or 20.3 percent, of the
413 purchases in our sample, totaling over $254,000, made by cardholders who
did not follow the prescribed controls. Specifically, cardholders did not receive
approval prior to card use; received approval for purchases from approving
officials that were not authorized to approve their purchases; did not verify fund
availability prior to purchases; and allowed other individuals to use their cards.
Cardholders also split purchases to circumvent single purchase limits, paid
incorrect amounts, and bought items not included in purchase requests. Lastly,
cardholders and approving officials did not take required purchase card training.
Based on statistical sampling, we estimate that $58 million of $277 million in
purchases that DOT cardholders made between October 1, 2009, and
March 31, 2011 did not comply with the prescribed controls. 6

FAA personnel did not always promptly record accountable property acquired
with a purchase card into the Agency’s inventory tracking system. We reviewed a
statistical sample of 44 out of 153 purchases for 224 Dell computers or servers
made at MMAC, and found that 72 of the 224 computers acquired were either not
recorded promptly or not recorded at all in FAA’s property system. Untimely
recording of accountable property acquired with purchase cards increases the risk
of loss or theft of these assets. This improper recording occurred, in part, because

4
  FAA’s Personal Property Process & Procedure Guide defines accountable property as having a useful life of two or
more years, costing more than $5,000 and/or sensitive to loss, theft, or misuse.
5
  We did not find any instance in which a cardholder made purchases for personal use.
6
  We estimate with 90 percent confidence that the amount of purchases made without following prescribed controls is
$58 million, approximately 20.8 percent of a universe of $277 million. Our estimate has a precision of 1.4 million (0.5
percent of the universe), meaning that our 90 percent confidence limits range from $56 million to $59 million or 20.3
percent to 21.3 percent.
                                                                                                                   3


FAA’s controls for receiving and tracking IT property acquired with purchase
cards do not require an approving official to verify that property has been received
prior to approving the purchase. Furthermore, cardholder and property delegates 7
did not always follow the control procedures. Based on statistical sampling, we
estimate that approximately $246,000, or 28 percent of $878,000 worth of Dell
computers purchased by MMAC cardholders between October 1, 2009, and March
31, 2011, were not recorded in the inventory system within 30 days of receipt, as
required by FAA property policy. 8 We also reviewed the purchase of 525 digital
cameras 9 and found that more than 350 were not recorded in FAA’s property
system, as required.

We are making recommendations to strengthen controls for the prevention and
detection of erroneous purchases and to assist FAA with its accounting for IT and
other accountable property that employees acquire with purchase cards.

BACKGROUND

The General Services Administration’s SmartPay® Program established contracts
with several banks to issue purchase cards to Federal employees through
departments’ card programs. Purchase card programs provide the Government
with financial and cash management control over low-dollar value, high-volume
procurements, and provide payment methods consistent with agencies’ policies for
larger transactions. Annually, DOT employees make approximately 300,000
purchases with these cards—primarily for supplies and services—totaling about
$200 million. DOT’s Working Capital Fund (WCF) 10 employees also regularly
use the cards to make contract payments for copier and other services.

OMB Circular A-123, Appendix B, prescribes policies and procedures to Federal
agencies for maintaining internal controls that reduce the risk of fraud, waste, and
error in their purchase card programs. It also requires agencies to develop policies
consistent with the Circular to minimize erroneous purchases. Agency Program
Coordinators (APC) at each DOT OA serve as the points of contact for their
cardholders and approving officials, and are responsible for ensuring proper use of
purchase cards in accordance with established policy.




7
  Property Delegates are responsible for the administration, use, accountability, and control of accountable property
within their custodial area, including entering accountable property into AITS.
8
  Our $246,000 estimate has a precision of +/- $88,000 at the 90 percent confidence level.
9
  According to FAA purchase card guidance, non-disposable digital cameras are considered sensitive and pilferable and
should be recorded in the property system.
10
   A component of the Office of the Secretary. It was established to provide common administrative services to DOT
operating administrations.
                                                                                  4


All OAs except FAA follow DOT’s Transportation Acquisition Manual (TAM),
Appendix B. FAA’s policy and controls for purchase card use are outlined in the
Agency’s Acquisition Management System (AMS) policy manual. Both manuals
outline program responsibilities for cardholders and their approving officials, and
specify particular procedures to ensure efficient program oversight. See Exhibit B
for details regarding DOT’s and FAA’s purchase card policies.

FAA’s AMS also outlines procedures for tracking, receiving, and recording
accountable property purchased with cards. This property includes computers and
non-disposable digital cameras, both of which must be recorded in FAA’s
Automated Inventory Tracking System (AITS) by a designated property delegate.

CARDHOLDERS DID NOT ALWAYS FOLLOW PRESCRIBED
CONTROLS

Properly designed internal controls over purchase cards were in place, but
cardholders and approving officials did not always comply with these controls. We
estimate that cardholders made $58 million in purchases without following the
prescribed controls. These purchases included: purchases by FAA cardholders that
had not obtained or documented proper pre-approval, or verified fund availability,
were made by someone other than the FAA cardholders, and for items that FAA
cardholders did not include on the purchase requests; purchases at FAA and
NHTSA that were approved by officials without authority over the cardholders;
split purchases; and purchases in incorrect amounts. Lastly, cardholders and
approving officials did not complete required purchase card program refresher
training.

Cardholders Made an Estimated $58 Million in Purchases without
Adhering to DOT Policy

Within our sample of 413 purchases, we found 84, or 20.3 percent, that were made
without following controls set forth by DOT policy. DOT’s TAM, FAA’s AMS
and other policy prescribe specific controls, procedures and/or requirements to
prevent and detect erroneous payments, acquisition of unnecessary items, loss or
theft of assets, and unfunded purchases. Table 1 summarizes purchases in our
statistical sample that did not conform to policy by policy violation. It also shows
that cardholders made over $254,000 in such purchases. Based on our sample, we
estimate that cardholders did not follow policy when making approximately
$58 million in purchases out of a total of $277 million made between
October 1, 2009, and March 31, 2011.
                                                                                                                      5



Table 1. Purchases Made with Policy Violations
 Administrative Purchase Card                          DOT’s                 FAA       Other OAs                 Total
 Policy Violation                                       WCF

 Pre-approval was not documented or
                                                                     $93,310.91                          $93,310.91
 requests omitted key information
 Persons other than cardholders’
 approving officials granted pre-                                      52,187.32      $12,873.24           65,060.56
 approval for purchases
 Purchases were made without prior
                                                                       47,019.34                           47,019.34
 verification of funds availability
 Purchases were made by persons
                                                                       25,093.48                           25,093.48
 other than cardholders
 Purchases were split to avoid
                                                                       10,398.36          1,654.31         12,052.67
 exceeding single purchase limits
 Purchases were made in incorrect
 amounts (including payment of sales               $7,716.58                90.00           621.10           8,427.68
 taxes)
 Cardholders purchased items not
                                                                        3,303.03                             3,303.03
 indicated on the purchase request
 Total                                             $7,716.58       $231,402.44        $15,148.65        $254,267.67
Source: OIG analysis of DOT data.

FAA Cardholders Did Not Document or Obtain Pre-Approvals

FAA requires cardholders to obtain prior approval from their designated approving
officials before making purchases. It further requires approving officials to
approve the justification and amount of each purchase and continually monitor
internal controls to ensure that prior approvals have been obtained. Designating
approving officials’ review and pre-approval of purchase requests reduces the risk
that cardholders will purchase unnecessary items. At FAA, cardholders made over
$93,000 in purchases without pre-approval from their approving officials, and
some purchase requests lacked information such as signatures and dates to
substantiate the pre-approval. For example:

• An FAA cardholder purchased 10 laptop computers with a total purchase value
  of $22,496 without documented pre-approval. The cardholder stated that the
  request to purchase these computers was communicated verbally by a
  supervisor. 11


11
   This sample item was the basis for our expanded scope. We also noted that the cardholder did not document funds
availability and the purchase was one of three purchases split to circumvent the cardholder’s single purchase limit. The
cardholder also could not provide signed shipping documents that demonstrated that the computers were received.
                                                                                                                     6


• In August 2010, an FAA cardholder purchased 20 computer software licenses
  at a cost of $9,440 without a pre-approved purchase request. The cardholder
  received the required approval in October 2010, nearly 2 months later.

• An FAA cardholder purchased almost $5,000 worth of cabling. The written
  purchase request did not provide a justification for the purchase, and did not
  identify who signed as the approving official or the date on which it was
  signed.

Persons Other than Designated Approving Officials Pre-Approved
Purchases by FAA and NHTSA Cardholders

FAA and NHTSA policies require cardholders to obtain prior approval from the
designated approving officials for each individual purchase card transaction.
However, at both FAA and NHTSA, individuals other than the cardholders’
designated approving officials provided pre-approval for 16 purchases totaling
over $65,000. For example:

• An FAA cardholder made five purchases of aircraft or flight simulator rentals
  for training purposes totaling $6,395, without approval from the designated
  approving official.

• At NHTSA’s Vehicle Research and Test Facility, five unauthorized employees
  granted approval for six purchases totaling about $13,000.

FAA Cardholders Made Purchases without Verification of Funds
Availability

FAA’s AMS requires funds certification officers to verify funds availability prior
to purchases. Approving officials are responsible for ensuring that cardholders
obtain funds certification for purchases. Funds certification helps to assure that
cardholders are not obligating funds that are not available and prevent potential
instances of non-compliance with the Antideficiency Act. 12 At FAA, cardholders
made over $47,000 in purchases without prior verification that funds were
available. For example:

• An FAA cardholder purchased computer cases for $15,399, but did not prepare
  a purchase request or document funds availability.


12
  The Antideficiency Act, 31 U.S.C. § 1341, prohibits Federal employees from making or authorizing expenditures
from, or creating or authorizing an obligation under, any appropriation or fund in excess of the amount available in the
appropriation or fund unless authorized by law. We did not identify any instances of noncompliance with this Act.
                                                                                                                     7


• Another FAA cardholder purchased a Program Management Certification
  course for $3,000. The training request did not show that funds were available
  prior to the purchase.

FAA Cardholders Also Allowed Other People to Use Their Purchase
Cards

FAA’s AMS restricts disclosure of purchase card account numbers, and prohibits
anyone other than the cardholder from using the purchase card. In addition, an
FAA official confirmed that contractors are not authorized to use employees’
purchase cards. However, two FAA cardholders allowed contractors to use their
purchase cards to make over $25,000 in purchases. For example:

• A contractor was granted access to an FAA cardholder’s account number and
  purchased ten computers totaling $18,017. The contractor made the purchase
  request, the cardholder’s approving official approved it, and a second
  contractor used the cardholder’s account to place the order. The cardholder was
  not involved at any point in the purchasing process.

• Another FAA cardholder allowed a contractor to use his purchase card on two
  separate occasions. The contractor used the card to pay $5,109 to ship aviation
  equipment and $1,966 to ship coaxial cables to Saipan.

Cardholders Split Purchases to Circumvent Their Single Purchase
Limits

OMB Circular A-123, Appendix B, the TAM, and FAA’s guidance prohibits
cardholders from splitting a purchase into several smaller ones to avoid a single
purchase limit (SPL). These limits ensure that cardholders do not purchase items
in excess of their purchase authorities. In the event a requested purchase exceeds
the limit, cardholders are directed to contact their approving officials to request a
purchase limit increase, and the approving officials to inform the APC that the
cardholder needs an increase. At FAA and FTA, cardholders made over $12,000
in split purchases to avoid exceeding their SPL. For example:

• An FAA cardholder with a $10,000 SPL made two purchases on the same day
  in the amounts of $7,605 and $4,327 totaling $11,932 which exceeded the
  cardholder’s SPL by $1,932. 13



13
  As depicted in Table 1, our results included just the $4,327 purchase. The $7,605 purchase was not in our statistical
sample of 413 purchases.
                                                                                8


• An FTA cardholder with a $3,000 SPL split a purchase request for office
  supplies totaling $4,691 into two purchases.

We also found no evidence that during their monthly reviews of card purchases,
approving officials detected incidents of multiple purchase transactions from one
vendor on the same day that exceeded SPLs.

Cardholders Paid Incorrect Amounts

DOT cardholders are responsible for verifying that purchases on their monthly
account statements are only for goods and services received. Furthermore,
approving officials are responsible for ensuring that cardholders reconcile their
monthly statements. Lastly, the TAM directs cardholders to verify that sales taxes
have not been charged and to request a credit from vendors if taxes have been
charged. If a cardholder does not adhere to these controls, Government funds may
be used unnecessarily. Four cardholders made purchases in incorrect amounts and
two others paid sales taxes on purchases. For example:

• A WCF cardholder procured fare media for distribution as part of the Federal
  Transit Benefit Program and did not verify that the amount received was
  accurately invoiced. As a result, the vendor was overpaid $7,200.

• The Saint Lawrence Seaway Development Corporation (SLSDC) and the
  Canadian St. Lawrence Seaway Management Corporation agreed to split the
  cost of printed invitations for a reception hosted by both corporations. SLSDC,
  however, paid the full invoiced amount of $1,218 and did not request the $609
  reimbursement until after our review.

• An FAA cardholder paid $90 sales tax on a $2,000 rental of air conditioning
  equipment.
                                                                                  9



FAA Cardholders Purchased Items that They Did Not Include on Their
Purchase Requests

FAA requires approving officials to ensure that items actually purchased are the
same as those approved in purchase requests. This process prevents the use of
funds for acquisition of unnecessary items. At FAA, cardholders purchased items
valued at over $3,000 that they did not include on their purchase requests or
exceeded their authorized quantities. For example:

• An FAA cardholder purchased two air conditioning units for $844—in excess
  of the $500 funding authorization—because he had learned of a store selling
  the units at a good price. He did not amend his purchase request, confirm
  availability of funds, or verify that there was a bona fide need for the second
  unit.

• An FAA employee had authorization to purchase tools for $1,061. The vendor
  offered a $144 discount on the order, and the employee purchased additional
  items in order to spend the entire approved amount, but did not amend the
  purchase request to obtain approval for the additional items.

Cardholders and Approving Officials Did Not Satisfy Purchase Card
Refresher Training Requirements

Ninety-seven out of 231 cardholders covered by our sample, or 42 percent, and 22
of 67 approving officials, or 33 percent, did not satisfy the required purchase card
refresher training. Furthermore, cardholders that had not completed refresher
training made $169,000 in purchases that did not follow policy (66 percent of the
total amount we identified).

All purchase cardholders and approving officials are required to complete initial
purchase card training. According to OMB, training helps card managers and
cardholders understand their roles and responsibilities, and keeps cardholders
informed of program changes and updates. DOT’s TAM directs OAs to develop
training for prospective cardholders and approving officials, and requires refresher
training every year. FAA’s AMS requires refresher training every 2 years. We did
not identify a requirement or a mechanism established for either DOT or FAA
approving officials and APCs to verify that cardholders and approving officials
meet their refresher training requirements.
                                                                                     10



FAA PERSONNEL DID NOT ALWAYS PROMPTLY RECORD
ACCOUNTABLE PROPERTY

FAA cardholders and property delegates at MMAC did not always follow FAA
policy for recording accountable property purchased with purchase cards in FAA’s
inventory tracking system. They either did not promptly record the property or did
not record it at all in AITS. We reviewed a statistical sample of 44 out of 153
purchases, and found that 72 of 224 computers or servers were not promptly
recorded (i.e., within 30 days) in FAA’s property system, and of the 72, 16 14 were
not recorded at all.

For example:

• A cardholder could not provide proof that ten purchased laptops, valued at over
  $22,000, had been received. These laptops were not recorded in AITS until
  eight months after the purchase. FAA has accounted for all but one of these
  laptops.

• Another cardholder purchased three servers for almost $6,000 each, but had
  not recorded them in AITS at the time of our review. The cardholder stated that
  he was not aware that servers were considered accountable property.

• A laptop was purchased for $1,500 by one cardholder, for another FAA
  employee. This employee did not have the laptop, but did have two others at
  his desk. None of the three computers were recorded in AITS.

Using statistical sampling, we project that approximately $246,000 worth, or
28 percent, of Dell computers acquired with purchase cards at MMAC from
October 1, 2009, to March 31, 2011 were not recorded in the property system
within 30 days of receipt. At the time of our review, FAA did not know the
location of 15 computers. With Agency property managers, we were able to locate
all but three laptops.

In addition to computer purchases, we reviewed purchases of non-disposable
digital cameras, which according to FAA policy are considered sensitive and
pilferable and are to be recorded in AITS. Between February 2010 and June 2010,
a cardholder purchased 525 digital cameras for aviation inspectors. The vendor
shipped the cameras directly to the inspectors located at numerous locations. We
were informed by an MMAC Property Manager that only 166 of the 525 cameras
had been recorded in AITS.

14
  Though we found no record in AITS, we did locate all but one of these computers.
                                                                                11



FAA’s Property Process and Procedure Guide states that property purchases
should be recorded in the tracking system within 30 days of receipt. However,
cardholder’s do not receive training regarding this requirement, and FAA’s
purchase card policy does not identify this requirement. Timely recording
decreases the likelihood that accountable property such as computers or cameras
will be lost or stolen.

CONCLUSION

Purchase cards add flexibility and efficiency to the procurement of supplies and
services. Strong internal controls must be in place to protect this high volume of
transactions from fraud, waste and abuse. While DOT succeeded in developing
suitable internal controls over the purchase card process, it was not as successful
in ensuring that purchase cardholders and approving officials comply with these
controls. Until DOT takes the necessary actions to enforce compliance, it will be
unable to prevent erroneous purchases made by cardholders and decrease the risk
that Government property will be lost or stolen.

RECOMMENDATIONS

We recommend that DOT’s Senior Procurement Executive and FAA’s Manager,
Acquisition Policy and Oversight:

1. Re-iterate to approving officials and purchase cardholders that:

   a. purchases must be authorized and pre-approved (if required by the OA), and
      the determination must be documented;
   b. only designated approving officials can pre-approve purchases (if required
      by the OA);
   c. funds certification must take place prior to a purchase being made, and the
      determination must be documented;
   d. only approved cardholders are authorized to make purchases;
   e. purchases should not be split to circumvent SPL;
   f. monthly cardholder statements should be reviewed for accuracy and that
      sales tax should not be paid;
   g. only approved items and quantities should be purchased; and
   h. Purchase card program refresher training is required on an annual (DOT) or
      bi-annual (FAA) basis.

2. Implement enforcement remedies for violations of purchase card procedures.
                                                                                12


3. Revise purchase card policy to require Agency Program Coordinators to: a)
verify that purchase cardholders have completed applicable refresher training
requirements, and b) develop procedures to have cardholder privileges suspended
when the requirement has not been met.

4. Evaluate and revise cardholder and approving official purchase card training to
include the acquisition of accountable property and applicable recording
requirements.

5. Coordinate with FAA’s Executive Manager, Aviation Logistics Organization to:

   a. Revise purchase card policy to require the approving official to verify that
      accountable property purchased is accurately recorded in the property
      system, prior to granting purchase final approval.
   b. Continue efforts to locate and account for the remaining digital cameras, not
      already recorded in AITS, and within 30 days, provide a report to OIG
      detailing the results of this effort.
   c. Work with cardholders and property delegates to locate, and record the
      physical locations of the three laptop computers that OIG could not locate,
      and within 30 days, provide a report to OIG detailing the results of the
      search.

AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
RESPONSE

We provided OST with a draft of this report on April 25, 2013, and we received
written comments dated June 4, 2013. The complete response is included as an
appendix to this report. While OST concurred with all five recommendations,
some of the statements OST made in its response indicate that it does not plan to
take actions that would fully address our concerns. Specifically:

• OST asserts that the vast majority of findings identified in Table 1 are
  administrative issues that have likely been resolved. We disagree. As noted in
  one of our examples, an FAA employee purchased 10 computers without any
  evidence that an appropriate official approved the transaction—a clear internal
  control failure, not an administrative issue. Furthermore, OST did not provide
  evidence that this or other internal control failures have been adequately
  addressed.

• OST stated that “some of the issues identified do not meet the definition of
  erroneous payments.” While it provides the Saint Lawrence Seaway payment
  as an example, OST leaves out two key facts: (1) SLSDC made the payment
  for the entire billed amount, including the amount corresponding to the
                                                                               13


      Canadian government, and (2) we identified the error, not SLSDC. Because
      SLSDC paid an amount it did not owe and had no plans to collect it, the
      amount met the definition of an erroneous payment.

Finally, FAA stated that it considers recommendation 5c resolved; however, it has
not provided sufficient evidence that it has located the three laptops that an FAA
official noted in December 2012 could not be found on FAA’s network. FAA
contends that it provided evidence of property record entries for the three
computers on January 2, 2013. However, to consider the recommendation closed,
we require FAA to provide evidence that it has physically located the missing
computers.

ACTIONS REQUIRED

DOT’s planned actions for recommendation 1 to 4, 5a and 5b are responsive and
we consider these recommendations resolved but open pending completion of the
planned actions. For recommendation 5c, we are requesting that the Agency
provide additional information on its planned actions, as detailed above. In
accordance with Department of Transportation Order 8000.1C, we request this
information within 30 days. All corrections are subject to follow-up provisions in
DOT Order 8000.1C.

We appreciate the courtesies and cooperation of Department of Transportation and
Federal Aviation Administration officials during this audit. If you have any
questions concerning this report, please call me at (202) 366-1407 or George
Banks, Program Director at (410) 962-1729.


                                       #

cc:      FAA Manager, Acquisition Policy and Oversight
         FAA Executive Manager, Aviation Logistics Organization
                                                                                 14


EXHIBIT A. SCOPE AND METHODOLOGY

We conducted this audit between April 2011 and April 2013 in accordance with
generally accepted Government auditing standards. Those standards require that
we plan and perform the audit to obtain sufficient, appropriate evidence to provide
a reasonable basis for our findings and conclusions based on our audit objectives.
We believe that the evidence obtained provides a reasonable basis for our findings
and conclusions based on our audit objectives.

Our primary objective for this audit was to assess the adequacy of controls in place
to prevent and detect erroneous purchases made using DOT-issued purchase cards.
We interviewed APCs, approving officials, and cardholders concerning the
purchases in our sample. We asked questions on procedures, approvals, and
policies to reduce the risk of fraud, waste, abuse, and errors in the purchase card
program.

We tested the effectiveness and implementation of procedures to prevent and
detect erroneous purchases by reviewing purchase card transactions made between
October 1, 2009, and March 31, 2011. Specifically, we determined if cardholders:
(1) obtained pre-approval, when required; (2) received purchase approval from
their designated approving officials; and (3) verified funds availability prior to
purchase. We also reviewed purchases to determine if cardholders: (1) allowed
unauthorized individuals to use the purchase card; (2) split purchases to
circumvent single purchase limits; (3) made purchases in incorrect amounts or
paid sales tax; and (4) purchased items not indicated on purchase requests. We
also reviewed training documentation to determine if cardholders satisfied
applicable DOT and FAA program refresher training requirements.

Our statistical sample testing was based upon a file received from US Bank with
727,510 purchase card transactions made between October 2009 and March 2011
that totaled $277 million. We selected a two-stage stratified probability
proportional to size sample with replacement to estimate the amount of erroneous
purchases. We first summarized purchase amounts by city. For Stage 1, we
stratified the universe of 595 cities into 2 strata: Stratum 1 had Washington, DC
and Oklahoma City. Both cities were included in the Stage 1 sample. Stratum 2
had all other 593 cities from which we selected a sample of 18 cities with
probability proportional to the transaction amount. Because two cities,
Washington DC and Oklahoma City, were selected twice, our actual total sample
size reduced from 20 to 18. For Stage 2, we stratified each city by purchase
amount and selected either a census (all) or samples with probability proportional
to purchase amount from each stratum for a total sample of 438
purchases. Eighteen purchases were selected twice which reduced the actual
sample size to 413 unique purchases with a net amount of $21 million.

Exhibit A. Scope and Methodology
                                                                               15


Erroneous purchases were determined based upon OMB’s definition of an
“improper” or “erroneous” purchase as a purchase that should not have been made
under statutory, contractual, administrative, or other legally applicable
requirements. We tested for administrative compliance consistent with the
following criteria: (1) OMB A-123, Appendix B, (2) DOT’s Transportation
Acquisition Manual, Appendix B, and (3) FAA’s Acquisition Management
System, Section T3.2.6 Purchase Card Program.

Based upon our initial sample testing and multiple exceptions noted regarding a
higher dollar purchase of computers, we expanded our audit scope to assess the
effectiveness of FAA’s accountability controls to accurately record information
technology (IT) including accountable property purchase card acquisitions into the
inventory system. We subset the original US Bank file with 727,510 cardholder
purchases made between October 2009 to March 2011 with a total amount of
$277 million to only include Dell purchases from MMAC in Oklahoma City that
were over $900. We selected a stratified probability proportional to size sample
with replacement to estimate the amount of at risk purchases due to the fact that
they were not promptly recorded in AITS. We stratified the universe into 3 strata
based on purchase amount and selected either a census (all) or a sample with
probability proportional to purchase amount for a total sample of 51 purchases.
Seven purchases were selected twice which reduced the actual sample size to 44
unique purchases with a net amount of $356 thousand.

A subsequent review included additional purchases (e.g. computer laptops,
desktops, and non-disposable digital cameras). We applied purchase card criteria
(FAA AMS T3.2.6) applicable to accountable property, and FAA’s Personal
Property Process and Procedure Guide, V2. As with the statistically selected
accountable property purchases, we performed existence testing with respect to 25
additional units, a total of 249.




Exhibit A. Scope and Methodology
                                                                                           16



  EXHIBIT B. ADMINISTRATIVE PURCHASE CARD POLICIES AND
  PROGRAM MANAGEMENT OVERSIGHT CONTROLS

                                              DOT Transportation            FAA Acquisition
       Administrative Policy or
                                              Acquisition Manual,             Management
         Oversight Control
                                                 Appendix B                  System, T3.2.6
 A cardholder must obtain and
 document pre-approval from their
                                                   Not Required                 Required
 designated approving official before
 making a purchase.*
 Only the designated approving
 official should grant pre-approval
                                                   Not Required                 Required
 for cardholder purchases, when pre-
 approval is required. *
 A cardholder must verify funds
 availability before making a                        Required                   Required
 purchase.
 Only authorized cardholders are
 permitted to make purchases with                    Required                   Required
 the card.
 A cardholder should not split a
 single transaction into two or more
                                                     Required                   Required
 transactions to circumvent his / her
 single purchase limit.
 Cardholders and approving officials
 are required to ensure purchases are
                                                     Required                   Required
 made in the correct amount, and
 sales taxes have not been paid.
 Cardholders should only purchase
 items identified on the pre-approved              Not Required                 Required
 purchase request.
 Cardholders and approving officials
 are required to complete initial &                  Required                   Required
 refresher purchase card training.**

* Not required by DOT TAM. Required by NHTSA Internal Procedures.
** DOT TAM requires annual refresher training. FAA AMS requires bi-annual training.




  Exhibit B. Administ rative Purchase Card Policies and Program
  Management Oversi ght Controls
                                                              17




EXHIBIT C. MAJOR CONTRIBUTORS TO THIS REPORT
Name                                    Title

George Banks                            Program Director

Mark Rielly                             Project Manager

Brian Frist                             Senior Analyst

Lakarla Lindsay                         Senior Auditor

Gary Fishbein                           Senior Auditor

Scott Williams                          Auditor

Petra Swartzlander                      Senior Statistician

Megha Joshipura                         Statistician

Susan Neil                              Writer-Editor




Exhibit C. Major Contributors to This Report.
                                                                                                18



APPENDIX. AGENCY COMMENTS




U.S. Department of        Assistant Secretary for Administration            1200 New Jersey Ave., SE
Transportation                                                              Washington, DC 20590

Office of the Secretary
of Transportation

                                                                   June 4, 2013


MEMORANDUM TO:                  Calvin Scovel III
                                Inspector General

FROM:




SUBJECT:                   Management Response to OIG Draft Report on the Use of
                           Purchase Cards

The Department’s implementation of the Government Purchase card program has been
sound, generated considerable savings to the taxpayers, and is subject to continuous
oversight to ensure that it is used only for appropriate purchases.
Purchase Card Use at DOT Reduced Government Costs

The sound implementation of the purchase card program at DOT generated savings to the
American public and reduced the cost of government in several ways. First, the use of the
card generates administrative savings, through reductions in the staff requirements to run
procurement operations and reduced administrative burdens. Based on an independent third
party estimate, the use of the government purchase card reduced administrative costs for
DOT by $22.9 million in fiscal year (FY) 2012. Secondly, throughout its implementation,
the Department has refined its payment system to ensure that payments are made timely.
These timely payments resulted in the Department receiving $2.8 million in purchase card
rebates during FY 2012, further reducing costs to taxpayers.




Appendix. Agency Comments
                                                                                            19



DOT Purchase Card Program Is Highly Effective

While relegated to a tiny footnote in the OIG draft report, it is important to highlight one of
the OIG’s primary findings - the OIG, “did not find any instance in which a cardholder
made purchases for personal use.” This most significant statement is a result of the
extensive controls in the program that are constantly being refined and enhanced, with new
techniques such as the data mining described below, that were put in place after the sample
period. We also note that the vast majority of findings identified in table 1 of the report
were administrative issues that have likely been resolved through the enhanced training put
in place since the period of the audit. In addition, the audit did not identify any
inappropriate purchases, a Governmentwide issue during the early years of the purchase
card program, which was also absent from the OIG’s findings about DOT’s implementation
in this report. Finally, some of the issues identified in the report, do not fit the definition of
erroneous purchases, such as the $609 transaction for which the Saint Lawrence Seaway
Development Corporation was reimbursed by the government of Canada and the $7,716
transaction for which the Department was reimbursed in a different manner than the OIG
had envisioned; however, reimbursement was achieved, during regular program operations.

Extensive and Effective Controls in Place to Ensure Appropriate Use

The Department and its purchase card vendors apply extensive, highly effective controls to
actively review purchase card activity and ensure propriety. All transactions under the DOT
purchase card will be subject to two separate data mining tools when Master Card
implements its system in July. During 2012, US Bank, at the Department’s direction,
initiated the first of these systems to enhance the Department’s ability to prevent and detect
fraud, ensure compliance with purchase requirements, and identify potential split purchases,
among other criteria. Further, one hundred percent of transactions at merchants that have
been identified as posing a high risk for an inappropriate use of a government purchase card,
for example a transaction at a high-end department store, are reviewed by the Department’s
Agency Program Coordinator (APC). There are additional routine screens that are provided
to APCs throughout the Department, including one hundred percent of transactions with line
item detail. In addition, some operating administrations conduct a review of one hundred
percent of transactions, such as the Office of the Secretary (OST). These offices routinely
review and take action on transactions where sales taxes may have been inadvertently
applied to transactions as well. Finally, purchase card leadership in OST routinely conducts
random transaction reviews throughout the Department, to provide a second level review
and additional oversight of purchase card transactions.

We recognize that thorough training for APC’s is the vital link between appropriate
behavior and ensuring correct transactions. The purchase card program has worked hard to
ensure APCs are fully and appropriately trained throughout the Department. In FY 2012,
one hundred percent of APCs completed training across the Department.




Appendix. Agency Comments
                                                                                        20



FAA Committed to Proper Management of Purchase Card Program

We note that over 90 percent of the OIG report findings relate to purchases made by FAA
cardholders. The FAA is committed to the proper management and use of the purchase card
program and the accurate recording of property. With the number of actions and amount of
funding expended through the program each year, the need for proper and effective internal
controls, training and oversight is critical to address any risk this program may introduce to
FAA. FAA notes that while the report was generated based on transactions that occurred
between October 2009 and March 2011, it has taken considerable action to further refine its
implementation of the program, along with property management, training and oversight
since 2011.

As the largest element of the Department’s purchase card program and while subject to its
own procurement requirements, FAA has taken a multi-faceted approach to actively
reviewing purchase card activity. In cooperation with OST and US Bank, the FAA also
deployed a data mining tool in January 2011, to monitor transaction activity daily, allowing
the agency to quickly respond to activity that violates established rules. Along with random
sample reviews, the formation of a standards oversight plan and the establishment of a
database to track findings, the FAA can now respond quickly to individual violations while
also monitoring spending and compliance trends.

FAA deployed an online refresher course during the first quarter of FY 2011 detailing
purchase card program roles and responsibilities, which each cardholder and approving
official was required to complete by April 2011. Beginning January 2011, the agency
specifically tracks all cardholder and approving official training in FAA’s eLearning
Management System (eLMS), updates applicable training records monthly, and suspends
the authority of personnel not complying with training requirements. As the standard
tracking system for all FAA training, eLMS provides full visibility of current training status
and future training requirements to program users.
RECOMMENDATIONS AND RESPONSES

Following are the recommendations included in the OIG draft report. Responses are
provided from the Office of the Senior Procurement Executive (OSPE), which manages the
purchase card program throughout the Department, with the exception of the FAA, and from
FAA. Inasmuch as FAA operates under its own procurement authority, using its own
guidance, we have included responses to all recommendations from both entities, with the
exception of number 5, directed specifically to FAA.

Recommendation 1: Re-iterate to approving officials and purchase cardholders that:

     a. purchases must be authorized and pre-approved (if required by the OA), and the
         determination must be documented;
     b. only designated approving officials can pre-approve purchases (if required by the
         OA);
     c. funds certification must take place prior to a purchase being made, and the
         determination must be documented;


Appendix. Agency Comments
                                                                                         21


     d. only approved cardholders are authorized to make purchases;
     e. purchases should not be split to circumvent SPL;
     f. monthly cardholder statements should be reviewed for accuracy and that sales tax
        should not be paid;
     g. only approved items and quantities should be purchased; and
     h. Purchase card program refresher training is required on an annual (DOT) or
        bi-annual (FAA) basis.

OSPE Response: Concur. OSPE will issue a memo reiterating to card holders and
approving officials the recommendations (a) through (e) and (g) and (h). With regard to
sales tax in item (f), the memo will also reiterate the importance of ensuring that vendors are
aware that purchase card transactions with the Federal government should not be assessed
state and local sales taxes. This memorandum will be issued by August 1, 2013.

FAA Response: Concur. FAA distributed a message, which was also provided to the OIG,
to all approving officials and cardholders on May 6, 2013 detailing each element in this
recommendation. Based on this action, FAA requests this recommendation to be closed.

Recommendation 2: Implement enforcement remedies for violations of purchase card
procedures.

OSPE Response: Concur. OSPE will review existing enforcement policies and ensure that
they are adequately documented. OSPE will ensure that remedies for violations are clear
and provide updated information to ensure clarity. These actions will be completed by
October 1, 2013.

FAA Response: Concur. FAA documented the management and oversight of its purchase
card program in the “FAA Purchase Card Management Plan.” FAA will review this
document and revise as necessary to ensure enforcement and violation standards are
adequately documented. FAA will also establish a corresponding risk management plan
detailing how the program will mitigate internal and external risks to systems and core
processes. Both documents will be finalized by June 30, 2013.

Recommendation 3: Revise purchase card policy to require Agency Program Coordinators
to: a) verify that purchase cardholders have completed applicable refresher training
requirements, and b) develop procedures to have cardholder privileges suspended when the
requirement has not been met.

OSPE Response: Concur: OSPE will review and update current policy to ensure that card
holder refresher training is verifiable and card privileges are suspended until verified. OSPE
intends to complete this action by October 1, 2013.

FAA Response 3a: Concur. FAA will ensure policy is revised to reflect this request.
Since January 2011 FAA has leveraged eLMS to track and manage purchase card refresher
training for every cardholder and approving official, which is documented in the “FAA
Purchase Card Management Plan.” As an additional measure, the purchase card program
office is providing oversight to ensure the training requirements are met and suspensions of


Appendix. Agency Comments
                                                                                        22


authorities occur if not met. The Acquisition Management System (AMS) Procurement
Guidance T3.6.1 will be revised to document that the National Purchase Card Program
Manager is responsible for verifying through eLMS reporting that each cardholder and
approving official completes applicable refresher training requirements. The AMS will be
revised by July 31, 2013.

FAA Response 3b: Concur. FAA purchase card oversight is currently documented in the
“FAA Purchase Card Management Plan,” including processes governing noncompliance
with required training requirements. FAA will review the plan to ensure procedures are
adequately documented and revise as necessary by June 30, 2013.

Recommendation 4: Evaluate and revise cardholder and approving official purchase card
training to include the acquisition of accountable property and applicable recording
requirements.

OSPE Response: Concur. OSPE will instruct OAs to update their purchase card training to
ensure it includes clear direction for card holders that acquire accountable property to
review, and be familiar with, OA specific property training and requirements. This direction
will be included in the memorandum referenced in response to recommendation 1, which
will be completed by August 1, 2013.

FAA Response: Concur. FAA will review both its online and instructor-led purchase card
training to verify the management and recording of accountable property is properly
addressed. The review and revision of curriculum for both courses will be completed by
September 30, 2013.

Recommendation 5: The OIG recommended that FAA:

a. Revise purchase card policy to require the approving official to verify that accountable
property purchased is accurately recorded in the property system, prior to granting purchase
final approval.

b. Continue efforts to locate and account for the remaining digital cameras, not already
recorded in AITS, and within 30 days, provide a report to OIG detailing the results of this
effort.

c. Work with cardholders and property delegates to locate, and record the physical locations
of the three laptop computers that OIG could not locate, and within 30 days, provide a report
to OIG detailing the results of the search.

FAA Response 5a: Concur. Acquisition Policy and Oversight and the Aviation Logistics
Organization will collaboratively review and revise current AMS Policy and Guidance to
require evidence that property purchased is accurately recorded in the property system prior
to the approving official final approving a transaction. The AMS will be revised by July 31,
2013.




Appendix. Agency Comments
                                                                                     23


FAA Response 5b: Concur. FAA will continue efforts to locate the remaining digital
cameras, and provide the OIG with a report detailing results by June 30, 2013.

FAA Response 5c: Concur. FAA located and properly recorded the three laptop computers
OIG could not locate, and provided the OIG with the evidence of the property record entries
on January 2, 2013. FAA considers this recommendation complete and request it be closed.




Appendix. Agency Comments
